-   May 10,2005




Financial Management
Appropriations Received and Net
Transfers on the FY 2004 DoD
Agency-Wide Financial Statements




                 Department of Defense
              Ofice of the Inspector General


      A Regular Statement of Account OF ttme Recelpts and Expenditures of all publrc
      Money shall be published from time to ttrne.
                                                               ArHde I, Sechon 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
MERHCF                Medicare Eligible Retiree Health Care Fund
MRF                   Military Retirement Fund
ODO                   Other Defense Organizations
OMB                   Office of Management and Budget
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
SBR                   Statement of Budgetary Resources
USACE                 United States Army Corps of Engineers
                           INSPECTOR GENERAL
                          'DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                          May 10,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTR0LLER)I
                          CHIEF FINANCLAL OFFICER
                        ASSISTANT SECRETARY OF THE AIR FORCE
                          (FINANCIAL MANAGEMENT ANlD COMPTROLLER)
                        DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                          SERVICE
                        AUDITOR GENERAL,DEPARTMENT OF THE ARMY
                        NAVAL INSPECTOR GENERAL
SUBJECT: Report on Appropriations Received and Net Transfers on the FY 2004
         QoD Agency- Wide Financial Statements (Report No. D-2005-06 1)

        We are providing this report for infomation and use. We considered
management comments on a draft of this report when preparing the final report. The
Defense Finance and Accounting Semice and U.S. Amry Corps of Engineers comments
conformed to the requirements of DUD Directive 7650.3; therefore, additional comments
are not required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Marvin L. Peek at (703) 325-5777 (DSN 221-5777) or Mr. Scott S. Brittingham at
(703) 325-6 104 (DSN 22 1-6104). The team members are listed inside the back cover.
See Appendix B for the report distribution.
                              By direction of the Deputy Inspector General for Auditing:



                                        pad#. Granetto, CPA
                                     Assi slant Lnspector General
                                     Defense Financial Auditing
                                              Service
             Department of Defense Office of the Inspector General
Report No. D-2005-061                                                      May 10, 2005
  (Project No. D2004FA-0117)

       Appropriations Received and Net Transfers on the FY 2004
               DoD Agency-Wide Financial Statements

                                Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for the
preparation and consolidation of DoD financial statements should read this report. It
discusses the reliability of reported appropriations received and net transfers.

Background. We performed the audit as part of our continuing audit work in support of
the Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994, which requires DoD and other Government agencies to
prepare audited financial statements.

Results. At the request of the Financial Improvement Executive Steering Committee, we
audited the accuracy of reported appropriations received on the DoD financial statements.
DoD accurately reported appropriations received on the published FY 2004 DoD
Agency-Wide Statement of Budgetary Resources in that we identified no material
misstatements. During the audit, we identified nonmaterial errors on both the mid-year
and year-end financial statements. However, the Defense Finance and Accounting
Service made corrections totaling $1 billion, which were reflected in the published
FY 2004 DoD Agency-Wide Statement of Budgetary Resources. In addition, the audit
disclosed that the DoD Agency-Wide Statement of Budgetary Resources included
appropriations received for the Military Retirement Fund and the Medicare Eligible
Retiree Health Care Fund, twice. The Office of Management and Budget was aware and
approved of this duplication in reporting. However, at our request, DoD agreed to
disclose the duplicate reporting in the footnotes to the FY 2004 DoD Agency-Wide
Financial Statements. Therefore, no recommendations for corrective actions are
warranted. (finding A)

DoD inaccurately reported net transfers of budget authority on the FY 2004 DoD
Agency-Wide Statement of Budgetary Resources. The Defense Finance and Accounting
Service misclassified $1.4 billion in transfers out from the Army Working Capital Fund
because review procedures did not effectively verify accounting adjustments and resolve
reporting inconsistencies. In addition, the U.S. Army Corps of Engineers Finance Center
misclassified $39.9 million net transfers because review procedures did not effectively
resolve reporting inconsistencies. We concluded that negative $519.3 million reported as
net transfers of budget authority on the FY 2004 DoD Agency-Wide Statement of
Budgetary Resources was materially understated by $1.5 billion. However, the effects of
the misstatements were not material to the FY 2004 DoD Agency-Wide Statement of
Budgetary Resources. (finding B)

Management Comments. The Director of Accounting Services for Army at Defense
Finance and Accounting Service Indianapolis concurred with the recommendations and
stated that Defense Finance and Accounting Service Indianapolis will institute additional
review procedures to ensure that no journal voucher entry contradicts procedures or
guidance issued for reporting the information on the SF 133 Report on Budget Execution
and Budgetary Resources. Further, the Defense Finance and Accounting Service will
ensure that all journal vouchers contradicting original guidance are documented by either
Office of the Secretary of Defense or Department of Treasury guidance directing that an
adjustment be made. Accounting personnel will rely only on official Defense Finance
and Accounting Service guidance. The Commander of the U.S. Army Corps of
Engineers concurred with the recommendation stating that the Finance Center would
institute a line by line reconciliation between the Statement of Budgetary Resources and
the SF 133 Report on Budget Execution and Budgetary Resources. See the Findings
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                             i

Background                                                   1

Objectives                                                   2

Findings
     A. Accuracy of Appropriations Received                  3
     B. Accuracy of Net Transfers of Budget Authority        8

Appendixes
     A. Scope and Methodology                                11
         Management Control Program Review                   12
         Prior Coverage                                      12
     B. Report Distribution                                  13

Management Comments
     U.S. Army Corps of Engineers                            15
     Defense Finance and Accounting Service - Indianapolis   16
Background
    We performed the audit as part of our continuing audit work in support of the
    Chief Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994. The Act requires DoD and other Government agencies
    to prepare audited financial statements. We audited this specific subject area, the
    accuracy of appropriations received as presented on the Statement of Budgetary
    Resources, at the request of the Financial Improvement Executive Steering
    Committee, chaired by the Deputy Chief Financial Officer in the Office of the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer
    (OUSD[C]/CFO).

    Current Posture of DoD Financial Statements. DoD received a disclaimer on
    its FY 2004 Financial Statements. DoD has acknowledged that:

       •   DoD-wide systemic deficiencies in financial management systems and
           business processes render it unable to collect and report financial and
           performance information that is accurate, reliable, and timely.

       •   DoD continues to enter material amounts of unsupported accounting
           entries.

    DoD Reporting Entities. The Office of Management and Budget (OMB)
    requires DoD to prepare audited financial statements for Army General and
    Working Capital Funds, Navy General and Working Capital Funds, Air Force
    General and Working Capital Funds, Military Retirement Trust Fund, and the
    U.S. Army Corps of Engineers (USACE) Civil Works Program. In addition, DoD
    reports on the Other Defense Organizations (ODO) General and Working Capital
    Funds and the Medicare Eligible Retiree Health Care Fund, which are also
    included in the DoD Agency-Wide Financial Statements.

    Appropriations Received. An appropriation is a provision of law, not
    necessarily in an appropriation act, authorizing the expenditure of funds for a
    given purpose. Appropriations received are amounts specified in appropriations
    acts (or in substantive laws) that become available for obligation beginning
    October 1 of the fiscal year. For FY 2004, DoD General and Working Capital
    Fund reporting entities received appropriations derived from six different
    appropriation acts, permanent indefinite appropriations, and special and trust
    funds. See Appendix A for the specific laws.




                                         1
    In addition, DoD reporting entities received appropriated receipts, that is,
    collections deposited in special and trust funds earmarked for specific purposes.
    These special and trust funds are established by the United States Code to receive
    earmarked and dedicated receipts. This would include:

       •   gift contributions from an outside source,

       •   Military contributions (appropriated to a general fund) made to special or
           trust funds, and

       •   interest earned on investments made by a special or trust fund.

    Net Transfers of Budget Authority. Net transfers of budget authority represent
    current-year authority that is transferred to or from an account. Transfers
    between appropriations must be authorized by law and represent a redistribution
    of unobligated balances of budget authority between appropriation accounts for
    the benefit of the gaining appropriation account.

    Statement of Budgetary Resources. The Statement of Budgetary
    Resources (SBR) and related disclosures provide information about how
    budgetary resources were made available as well as their status at the end of the
    period. Information on the SBR should be consistent with budget execution
    information reported on the Report on Budget Execution and Budgetary
    Resources (SF 133) and with information reported in the Budget of the United
    States Government. The SBR aggregates account-level information reported in
    individual SF 133s. Appropriations Received (Line 1.a. on the SBR) includes all
    new appropriated amounts for the current year. Net Transfers (Line 1.d. on the
    SBR) represents net transfers of new budget authority. The SBR is combining;
    therefore, there are no eliminations at the DoD agency-wide level. For
    FY 2004, the DoD Agency-Wide SBR showed $582 billion in appropriations
    received, and a negative figure of $519.3 million in net transfers of budgetary
    authority.


Objectives
    Our overall announced audit objective was to assess the accuracy and reliability
    of appropriations received on the SBR for the FY 2004 Mid-Year DoD
    Agency-Wide Financial Statements. At the request of the OUSD(C)/CFO, we
    extended our review to the year-end financial statements and included a review of
    net transfers of budget authority. We also reviewed the management control
    program as it relates to the overall objective. See Appendix A for a discussion of
    the scope and methodology and our review of the management control program as
    well as prior coverage related to the objectives.




                                         2
            A. Accuracy of Appropriations Received
            DoD accurately reported appropriations received on the published
            FY 2004 DoD Agency-Wide SBR. During the audit, we identified
            nonmaterial errors on both the mid-year and year-end financial statements.
            However, the Defense Finance and Accounting Service (DFAS) made
            corrections totaling $1 billion, which were reflected in the published
            FY 2004 DoD Agency-Wide SBR. In addition, the audit disclosed that
            the DoD Agency-Wide SBR included appropriations received for the
            Military Retirement Fund (MRF) and the Medicare Eligible Retiree
            Health Care Fund (MERHCF), twice. OMB was aware and approved of
            this duplication in reporting. However, at our request, DoD agreed to
            disclose the duplicate reporting in the footnotes to the FY 2004 DoD
            Agency-Wide Financial Statements. Therefore, no recommendations for
            corrective actions are warranted.


Appropriations Received
    Year-End Review. For FY 2004, the DoD Agency-Wide SBR reported
    $582 billion in appropriations received. Of that amount, we reviewed
    $547.6 billion (94 percent). Of the $34.4 billion not reviewed (6 percent),
    $32.9 billion is primarily attributable to contributions made to and interest earned
    by the MRF and MERHCF. Independent public accounting firms under contract
    with the Department of Defense Office of Inspector General conducted separate
    audits on the MRF and MERHCF. Both funds received favorable audit opinions
    on the FY 2004 financial statements. Table 1 provides the audit results by DoD
    reporting entity.

            Table 1. FY 2004 DoD Agency-Wide Appropriations Received
                                  (in millions)
                                             Amount              Amount            Variance
             Reporting Subentity             Reported           Reviewed         Over / (Under)
      Army General Fund                     $149,559.9         $149,547.7
      Navy General Fund                      123,948.5          123,918.0
      Air Force General Fund                 125,483.8          125,480.7
      USACE (Civil Works)                      5,141.2            3,854.1           $ 39.5
      ODO General Funds                      106,800.7          106,630.8            (169.6)
      Army Working Capital Fund                  219.3              219.3
      Navy Working Capital Fund                  130.4              130.4
      Air Force Working Capital Fund               0                  0
      ODO Working Capital Funds                3,369.8            3,369.8            (511.7)
      MERHCF                                  25,100.3           16,260.0 *
      MRF                                     42,256.8           18,189.0 *
          Total                             $582,010.7         $547,599.8           $(641.8)
      *
        We reviewed the Federal contributions for the annual unfunded liabilities (permanent
      indefinite appropriations) portion of the amount reported.

                                              3
       Misstatements Identified. Of the amounts reviewed on the year-end
SBR, we identified $555.7 million in misstatements and a potential misstatement
of $165.1 million. DFAS corrected misstatements of $511.7 million.

               ODO Working Capital Funds. During the audit, we determined
that the appropriations received line for ODO Working Capital Funds was
understated by $511.7 million. The understatement was due to the unique nature
of the FY 2005 Appropriations Act (which provided for additional war-related
appropriations in FY 2004) and the timing for the allocation of those funds. We
informed DFAS on November 3, 2004, of the misstatements. DFAS researched
and agreed that the information was misstated and made appropriate corrections
before the FY 2004 year-end financial statements were issued.

               ODO General Funds. The ODO General Funds appropriations
received line was understated by $4.5 million and may have been understated by
an additional $165.1 million. (The sum of $4.5 million and $165.1 million is the
$169.6 million shown in Table 1.) An understatement of $2.4 million resulted
from DFAS inaccurately netting an enacted reduction against Appropriations
Received (Line 1.a.) instead of recording it as required by OMB in Enacted
Reductions (Line 6.) on the SBR. We did not determine the cause of the
remaining $2.1 million understatement.

The Defense Burdensharing Fund may have been understated by $165.1 million.
DFAS made unsupported adjustments to the appropriations received line to
reconcile to the amount reported on the Treasury Combined Statement of
Receipts, Outlays, and Balances. DFAS classified the difference as undistributed
and did not resolve these differences. During the audit, we made observations
about the documentation provided to substantiate the amounts reported for the
DoD Education Benefits Fund, Voluntary Separation Incentive Fund, and the
Defense Burdensharing Fund. (See Other Matters of Interest on Page 6.)

                USACE (Civil Works). The $39.5 million overstatement of the
appropriations received line for USACE occurred because the USACE Finance
Center misclassified $39.8 million in net transfers in on Appropriations Received
(Line 1.a.) instead of Net Transfers (Line 1.d.), and it erroneously reversed
$0.3 million initially recorded to increase appropriations received to the correct
balance. The $39.5 million overstatement of appropriations received was offset
by an understatement of $39.9 million in net transfers. The combined effect of
the misstatements on budget authority was an understatement of $0.4 million,
which we did not consider material. These nonmaterial errors were not corrected
because we were unable to resolve this discrepancy before the financial
statements were issued.

As stated, DFAS made adjustments to correct a $511.7 million understatement.
Appropriations received on the FY 2004 SBR may still have been understated by
$130 million (.02 percent). The unresolved and uncorrected misstatements were
not material to the FY 2004 DoD Agency-Wide SBR.

Correction to the Mid-Year Statements. Our review of the mid-year financial
statements disclosed misstatements totaling $549.6 million. DFAS had used
estimates for transactions during March 2004 in order to satisfy the accelerated

                                     4
    OMB reporting requirements. In addition, misstatements occurred because
    appropriations received totals were reduced to reflect across the board reductions
    that DFAS should have shown in Enacted Reductions (Line 6.). In July and
    August 2004, we briefed the OUSD(C)/CFO and DFAS on the results of our
    mid-year review and DFAS made corrections to appropriations received in time to
    be reflected in the year-end financial statements.


Duplicate Reporting of Appropriations Received
    Amounts reported as appropriations received, excluding interest earned, on the
    FY 2004 DoD Agency-Wide SBR for the MRF, MERHCF, DoD Education
    Benefits Fund, and the Voluntary Separation Incentive Fund were also reported as
    appropriations received by the Army, Navy, Air Force, and ODO General Funds.
    Table 2 shows the appropriated amounts reported twice on the SBR.

                       Table 2. Appropriated Amounts Reported Twice
                                        (in millions)
                                                             Receiving Entity
                                                                        Education
                                                                         Benefits   VSI 1, 2
          Contributing Entity          MRF              MERHCF           Fund 1      Fund
      Army General Fund               $5,724.6           $3,002.4         $130.9     $23.5
      Navy General Fund                4,554.4            2,815.0            29.9      3.8
      Air Force General Fund           3,791.8            2,101.3            43.7     27.8
      ODO General Funds               18,189.0           16,260.0             0        0
          Total                      $32,259.8          $24,178.7         $204.5     $55.1
      1
          Fund included as part of ODO General Funds.
      2
          Voluntary Separation Incentive Fund


    Each year, ODO General Funds receive permanent indefinite appropriations for
    payment to the MRF and the MERHCF. The appropriations are attributable for
    service rendered prior to October 1984 and October 1, 2002, respectively. These
    funds are immediately transferred to the MRF and the MERHCF. However, ODO
    General Funds as well as the MRF and the MERHCF report these funds on the
    SBR as appropriations received.

    In addition, the Military Departments make contributions to the MRF, MERHCF,
    the DoD Education Benefits Fund, and the Voluntary Separation Incentive Fund
    from their annual military appropriation accounts. Both the contributing and the
    receiving entities report these funds on the SBR.

    Because the SBR is a combining financial statement, DoD does not eliminate the
    double counting of those appropriations. We discussed the duplicate reporting of
    the appropriations with personnel from OMB, who stated that they approve of the
    duplicate reporting, and the current reporting procedures should not be changed.

                                              5
     We briefed personnel in OUSD(C)/CFO and DFAS on the need to explain in the
     notes to the financial statements that amounts reported by the ODO General
     Funds and the Army, Navy, and Air Force General Funds are also reported as
     appropriations received on the SBR for the MRF and the MERHCF. As a result
     of our suggestions, DoD included information in Note 21 to the financial
     statements describing the duplicate reporting. The note also stated that “OMB is
     aware and approves of this duplicate reporting. Ongoing discussions with OMB
     and the Department of the Treasury have resulted in a change for MERHCF so
     that this duplication will not occur in future reporting periods.”


Other Matters of Interest
     During the audit, we made observations about the documentation DFAS provided
     to substantiate the amounts reported for the DoD Education Benefits Fund,
     Voluntary Separation Incentive Fund, and the Defense Burdensharing Fund.

     DoD Education Benefits and Voluntary Separation Fund. The DoD
     Education Benefits Fund accumulates funds for transfer to the Department of
     Veterans Affairs to cover DoD’s share of education liabilities. The Voluntary
     Separation Incentive Fund accumulates amounts needed to finance liabilities
     accrued under the Voluntary Separation Incentive Program. DoD Regulation
     7000.14-R “Financial Management Regulation” requires the Services to complete
     collection and disbursement transactions using an SF 1081 “Voucher and
     Schedule of Withdrawals and Credits.” The majority of the documentation that
     the Services submitted for the funds did not conform to the requirements of DoD
     Regulation 7000.14-R. In addition, we identified the following for the DoD
     Education Benefits Fund.

        •   Military Service approval of supporting documentation was not always
            evident.

        •   The method of allocating the contribution information at the Service level
            on the DFAS input sheet was not always clear.

        •   DFAS personnel did not verify and date some DFAS generated input
            sheets.

     Defense Burdensharing Fund. The Defense Burdensharing Fund Contribution
     Account is used to accumulate contributions from any country or regional
     organization for compensation for local national employees of the DoD, military
     construction projects of the DoD, and supplies and services of the DoD.
     Contributions are currently made by Korea, Japan, and Kuwait. DFAS field
     activities forwarded approximately $69.7 million in nonconforming contribution
     documentation to DFAS Indianapolis personnel. This documentation consisted
     primarily of emails that included an excel attachment with the contribution
     information. Because this documentation does not conform to the guidance in
     DoD Regulation 7000.14-R, we could not substantiate whether the $69.7 million
     was collected for the Defense Burdensharing Fund Contribution Account.


                                         6
Because our review was limited to appropriations received and the issues
identified are not material to the overall objective, we are not making
recommendations. However, we provided DFAS the results of our review in a
separate memorandum, suggesting that it needs to develop standard operating
procedures for documenting the funds.




                                   7
            B. Accuracy of Net Transfers of
               Budget Authority
            DoD inaccurately reported net transfers of budget authority on the
            FY 2004 DoD Agency-Wide SBR. Specifically, DFAS misclassified
            $1.4 billion transfers out from the Army Working Capital Fund because
            DFAS review procedures did not effectively verify accounting
            adjustments and resolve reporting inconsistencies. In addition, the
            USACE Finance Center misclassified $39.9 million net transfers in
            because USACE review procedures did not effectively resolve reporting
            inconsistencies. Therefore, the negative $519.3 million reported as net
            transfers of budget authority on the FY 2004 DoD Agency-Wide SBR was
            materially understated by $1.5 billion. However, the effect of the
            misstatements on the SBR as a whole was not material because the
            understatements were offset by related overstatements on other lines of the
            SBR. Further, there will not be an associated impact to the FY 2005 SBR.


Net Transfers of Budget Authority
     Transfers Reported for the Army Working Capital Fund. DFAS
     misclassified transfers out from the Army Working Capital Fund as transfers of
     current year appropriations (appropriation transfers) instead of transfers of
     unobligated balances (balance transfers). OUSD(C)/CFO instructed that DFAS
     record the transfers as balance transfers.

     DFAS made journal voucher adjustments to reclassify transfer transactions for the
     Army Working Capital Fund, but did not obtain relevant support documentation
     reflecting formal approval for the specific type of transfer entered. DFAS
     incorrectly applied email guidance for one specific transfer transaction between
     the Army Working Capital Fund and the Defense Commissary Agency Working
     Capital Fund to all transfer transactions involving the Army Working Capital
     Fund. More stringent review procedures should help ensure copies of relevant
     supporting source documentation are obtained.

     DoD Regulation 7000.14-R, volume 6B, chapter 7, states that information on the
     SBR should be consistent with budget execution information reported on the
     SF 133, and material differences should be fully explained in footnote disclosures
     for the SBR. A negative $1.4 billion reported as Net Transfers (Line 1.d.) on the
     SBR for the Army Working Capital Fund was not shown on the corresponding
     lines of the SF 133 for the Army Working Capital Fund. DFAS reconciliation
     procedures identified this difference. However, DFAS did not resolve the
     difference because it relied on email guidance; and therefore, believed that the
     SBR was correct. Review procedures should be enhanced to enable DFAS to
     resolve reporting inconsistencies.

     Transfers Reported for the USACE. As previously discussed in Finding A, the
     USACE Finance Center misclassified $39.8 million in net transfers in on the
     appropriations received line. In addition, the USACE Finance Center

                                         8
    misclassified $0.1 million in net transfers out on Net Transfers (Line 1.d.) instead
    of Net Transfers, Actual (Line 2.b.) because the USACE Finance Center did not
    resolve differences between the SBR and SF 133s prior to issuance of the SBR.
    We discussed differences between the SBR and SF 133s with the USACE on
    November 30, 2004. USACE personnel stated that they recorded the transfers as
    appropriations to agree with Treasury reports and subsequently sought instruction
    from the Treasury and OMB on the proper reporting of transfers. However,
    instruction was received too late to correct the SBR before it was issued. As a
    result, amounts reported as Net Transfers (Line 1.d.) on the SBR did not
    correspond to the SF 133s. Review procedures should be enhanced to enable
    USACE to resolve reporting inconsistencies prior to issuing the financial
    statements.


Recommendations and Management Comments
    B.1. We recommend that the Director of the Defense Finance and
    Accounting Service in Indianapolis strengthen review procedures for
    accounting adjustments to ensure relevant documentation is obtained to
    accurately and fully support accounting adjustments.

    Management Comments. The Director of Accounting Services for Army at
    Defense Finance and Accounting Service Indianapolis concurred with the
    recommendation and stated that Defense Finance and Accounting Service
    Indianapolis will institute additional review procedures to ensure that no journal
    voucher entry contradicts procedures or guidance issued for reporting the
    information on the SF 133 Report on Budget Execution and Budgetary Resources.
    Further, review procedures will ensure that all journal vouchers contradicting
    original guidance are accompanied by either Office of the Secretary of Defense or
    Department of Treasury guidance directing that an adjustment be made rather
    than relying on unofficial Defense Finance and Accounting Service guidance.
    The estimated completion date was May 1, 2005.
    B.2. We recommend that the Director of the Defense Finance and
    Accounting Service in Indianapolis and the Commander of the U.S. Army
    Corps of Engineers strengthen review procedures for financial statement
    reporting to ensure that reporting inconsistencies are researched and
    resolved prior to issuing the financial statements.

    Management Comments. The Director of Accounting Services for Army at
    Defense Finance and Accounting Service Indianapolis concurred with the
    recommendation and stated that Defense Finance and Accounting Service
    Indianapolis will institute an additional review of the Statement of Budgetary
    Resources to SF 133 Report on Budget Execution and Budgetary Resources
    reconciliation before releasing reports as final. The estimated completion date is
    August 1, 2005.

    The Commander of the U.S. Army Corps of Engineers concurred with the
    recommendation stating that the U.S. Army Corps of Engineers Finance Center
    will strengthen review control procedures by instituting line by line reconciliation

                                         9
between the Statement of Budgetary Resources and the SF 133 Report on Budget
Execution and Budgetary Resources. The estimated completion date is
August 31, 2005.




                                 10
Appendix A. Scope and Methodology
   We are not expressing an opinion on the DoD Agency-Wide Financial Statements
   or the subject line items that we are concluding on. Our audit was designed to
   determine whether the amounts reported for appropriations received and net
   transfers at the department level were accurately reported for FY 2004. Our audit
   did not focus on procedures and controls over the reporting or the compilation of
   amounts reported on the financial statements but instead focused on verifying
   outputs to source documentation at the departmental level.

   To accomplish our objective, we reviewed the following FY 2004 appropriation
   acts:

      •   Public Law 108-087, “Department of Defense Appropriations Act, 2004,”

      •   Public Law 108-132, “Military Construction Appropriations Act, 2004,”

      •   Public Law 108-106, “Emergency Supplemental Appropriations Act for
          Defense and for the Reconstruction of Iraq and Afghanistan, 2004,”

      •   Public Law 108-199, “Consolidated Appropriations Act, 2004,”

      •   Public Law 108-137, “Energy and Water Development Appropriations
          Act, 2004,” and

      •   Public Law 108-287, “Department of Defense Appropriations Act, 2005.”

   We reviewed 100 percent of the amounts enacted for FY 2004 by appropriations
   acts. In addition, we reviewed Federal contributions for the annual unfunded
   liabilities (permanent indefinite appropriations) credited to the MRF and
   MERHCF. Finally, we judgmentally selected three special and trust funds for
   review of contribution documentation, including cash collection vouchers;
   contribution vouchers from the Military Services; and Department of the Treasury
   reports—DoD Education Benefits Fund, Voluntary Separation Incentive Fund,
   and the Defense Burdensharing Fund, which are included in the ODO General
   Funds.

   Additionally, we reviewed FY 2004 treasury warrants and nonexpenditure
   transfers SF 1151s. We met with and/or contacted personnel from the
   OUSD(C)/CFO, Department of the Army, Department of the Navy, Department
   of the Air Force, USACE, DFAS, and OMB. We evaluated amounts reported and
   supporting documentation against OMB Bulletin 01-09, “Form and Content of
   Agency Financial Statements,” September 25, 2001; OMB Circular No. A-11,
   “Preparation, Submission, and Execution of the Budget,” July 2003; DoD
   Financial Management Regulation 7000.14-R, August 31, 2004.

   We performed this audit from March 2004 through February 2005 in accordance
   with generally accepted government auditing standards.


                                      11
     Use of Computer-Processed Data. We used computer-processed data contained
     within the Defense Departmental Reporting System and Department of Treasury
     Governmentwide Accounting system to perform this audit. However, we did not
     rely on the processes to compile the data or controls over the data derived. We
     compared Defense Departmental Reporting System outputs to source
     documentation to conclude on the accuracy and reliability of appropriations
     received and net transfers reported on the DoD Agency-Wide Financial
     Statements for FY 2004 year-end.

     Government Accountability Office High-Risk Area. The Government
     Accountability Office has identified several high-risk areas in DoD. This report
     provides coverage of the Financial Management high-risk area.


Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of DFAS management controls over reporting the line items,
     appropriations received and net transfers of budget authority, on the SBR.
     Because we did not identify a material weakness, we did not assess management’s
     self-evaluation.

     Adequacy of Management Controls. DFAS management controls were
     adequate in that we identified no material management control weaknesses as
     defined by DoD Directive 5010.38.


Prior Coverage
     During the last 5 years, the Air Force Audit Agency has issued one report
     discussing appropriations received and net transfers. Unrestricted Air Force
     Audit Agency reports can be accessed over the Internet at
     http://www.afaa.hq.af.mil/domainck/mositemap.shtml#pr.

Air Force Audit Agency
     Air Force Audit Agency Report No. 01053012, “Revenue and Other Financing
     Sources – Resources Provided, Fiscal Year 2000,” August 24, 2001.




                                         12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Finance and Accounting Service - Indianapolis

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
U.S. Army Corps of Engineers Comments




                     15
Defense Finance and Accounting Service
Indianapolis Comments




                      16
17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Marvin L. Peek
Scott S. Brittingham
Denise E. Baldridge
Timothy A. Cole
Kristy M. Lingenfelter
Carl L. Adams
Cheri L. Reiser
